HHS/OIG, Audit - "Audit of Medicaid Payments for Oxygen Related Durable
Medical Equipment and Supplies - January 1, 1998 through December 31, 2000 - Pennsylvania
Department of Public Welfare, Harrisburg, Pennsylvania," (A-05-01-00105)
Department
of Health and Human Services
"Audit of Medicaid Payments for Oxygen Related Durable Medical Equipment
and Supplies - January 1, 1998 through December 31, 2000 - Pennsylvania Department
of Public Welfare, Harrisburg, Pennsylvania," (A-05-01-00105)
September 4, 2002
Complete Text of Report is available in PDF format
(522 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review
was to determine if the Pennsylvania Medicaid program was reimbursing providers
amounts in excess of State Medicare limits for durable medical equipment (DME)
and supplies used to provide oxygen.  We found that the Medicaid program
was overcharged approximately $3.4 million due to excessive Medicaid reimbursement
rates.  The excessive reimbursements occurred because the State agency
set the reimbursement limits for these items above the dollar amount allowed
for similar items under the Medicare program and other State Medicaid programs.
We recommended that the State refund the Medicaid program $3,378,481 (Federal
share $1,813,649) for excessive reimbursements to providers and limit the maximum
allowable price for DME and supplies to an amount equal to or less than the
Medicare allowable amount for the same items.  A State agency official
generally concurred with our recommendations.